ISPC REVOLVING CREDIT ACCOUNT DISCLOSURES
(Florida Law Applies)

THIS IS YOUR AGREEMENT. PLEASE READ IT AND KEEP IT FOR YOUR RECORDS.
This ISPC Revolving Credit Account Agreement (the “Credit Account
Agreement” or the “Agreement”) contains the terms and conditions of your
ISPC Revolving Credit Account (called your “Account” in this Agreement). As
used in this Agreement, the words “you” and “your” mean each person who
applied for the Account and “we”, “us” and “our” mean The Independent Savings
Plan Company doing business as ISPC. This Agreement will be binding on
both you and us if we approve your Application for an Account. You can use
your Account to purchase goods, services, parts and repairs from participating
ISPC retailers and directly from ISPC, if and when offered, as well as cash
advances up to the full amount of your credit limit. If more than one person
signed the Application for your Account, each of you is responsible individually
and together for all obligations and amounts due under this Agreement.

INTEREST RATES AND INTEREST CHARGES
ANNUAL PERCENTAGE
RATE (APR)
FOR PURCHASES AND
CASH ADVANCES

7% to 18%. APR varies by state. See INTEREST CHARGE RATES paragraph below for
more information.

PENALTY INTEREST

NONE

PAYING INTEREST

There is no grace period before we charge
interest, except if required by applicable state
law. We will begin charging interest on your
purchases and cash advances starting on the
date we fund your transaction.

MINIMUM INTEREST
CHARGE

NONE

ACCOUNT MAINTENANCE FEES: This fee will not be charged to Accounts in the
following states: AL, CA, CO, IL, KY, LA, MD, MN, MO, MT, NJ, NM, NV, NY,
OH, PA, TX, WA and WV. After the first 6 billing cycles, a monthly Account
Maintenance Fee of $7 may be charged on your Account in AZ, DE, IA, ID, IN,
KY, ME, MI, MS, NE, NH, ND, OR, SD, UT, WI and WY, and $5 in OK and VA.
Your monthly Account Maintenance Fee in TN will be $2.50 if your credit limit
is more than $1,250. In FL, GA, NC, and SC your Account Maintenance Fee
will be $5 and will be charged if your Annual Percentage Rate is not higher
than 15%. If you are charged an Account Maintenance Fee, you will receive a
credit against it of the lesser of $5 ($3 in FL, GA, NC, SC, OK and VA) or the
amount of the Account Maintenance Fee applicable to your Account in any
month in which a preauthorized ISPC AutoPay payment is made. If you are
charged an Account Maintenance Fee, you will receive a credit against your
Account Maintenance Fee of the lesser of $2 or the amount of your Account
Maintenance Fee in any month in which you choose to receive your billing
statement online at www.theispc.com rather than your billing statements being
mailed to you.
ANNUAL FEES: After the first 12 billing cycles of your Account, we may charge
you an Annual Fee of $25 on your Account. No annual fees will be charged
to residents of AR, CA, IA, KY, LA, MI, MN, MT, ME, NJ, NM, OK, OR, SC,
TN, WV, and WY. In OH, NV, and IL your Annual Fee will be $20. In NC your
Annual Fee will be $24. In TX your annual fee will be $75 if your credit limit
exceeds $5000, otherwise $50. In FL, VA, and GA you will be charged an
Annual Fee of $25 if your Annual Percentage Rate is not higher than 15%. In
MO and PA, your Annual Fee will be $50. If your Account is not in default at any
time during the 12 billing cycles prior to the billing cycle in which the Annual
Fee is charged to your Account, you will receive a credit for the amount of your
Annual Fee.

HOW WE WILL CALCULATE YOUR BALANCE: We use a method called “average
daily balance (including new transactions).” See below in this Account
Agreement for more details.
BILLING RIGHTS: Information on your rights to dispute transactions and how to
exercise those rights is provided below in this Account Agreement.
YOU PROMISE TO PAY: You will owe us all amounts charged on the Account plus
interest charges and the other charges as provided for in this Agreement. You
promise to pay us for all amounts owed to us under this Agreement.

LATE CHARGES: If we do not receive a payment from you in at least the amount
of your minimum payment due by the Payment Due Date shown on your billing
statement, we may charge you a Late Payment Fee according to the amounts
shown below. Grace periods vary by state and your applicable grace period,
if any, will also show on your billing statement. Late Payment Fees will not be
charged until the expiration of your applicable grace period. No Late Payment
Fees will be charged prior to the first day of the month following your Payment
Due Date.

LATE CHARGES BY STATE

INTEREST CHARGE RATES: Interest is payable on your Account at the standard
APR of 18%, which is equal to a daily periodic rate of .0493% with the following
exceptions: Arkansas APR of 17% and daily periodic rate of .0465%; Nebraska
and New York APR of 16% and daily periodic rate of .0438%; New Mexico and
North Carolina APR of 15% and daily periodic rate of .0411%; North Dakota
APR of 7% and daily periodic rate of .0192%; and Georgia APR of 17.5% and
a daily periodic rate of .0479%. The standard APR and daily periodic rate on
your Account is the same for purchases and cash advances, although it may
be different for purchases subject to special promotions.

5 Day Grace Period

In no event shall the amount of interest due or payable under this Agreement
exceed the maximum rate of interest allowed by applicable law, as amended
from time to time, and in the event any such payment includes any excess
interest, then such excess sum shall be credited as a payment of principal
in reduction of the balance due under your Account. Florida accounts are
governed by Fla. Stat. Chapter 520 and the parity provisions in Fla. Stat.
§687.12.

ANNUAL FEE

CASH ADVANCE
FEE

TELEPHONE
PAYMENT FEE

$0 for initial 6 months. $0 up to $7 per month ($84
annually) each year after that. This fee will not be
charged in those states where it is prohibited. In
those states where permissible, this fee will be
charged in accordance with your state’s law. Please
see the paragraph below regarding your state’s
applicable provisions.
$0 for the first year. Up to $75 after that. Residents
of states where the law prohibits or limits Annual
Fees will be charged in accordance with their state
law. Please see below.
Up to $10 or 5% of the amount of each cash
advance, whichever is greater.
This fee will not be charged in those states where it
is prohibited. In those states where permissible, this
fee will be charged in accordance with your state’s
law. Please see the paragraph below regarding your
state’s applicable provisions.
Up to $10. Residents of states where the law
prohibits or limits Telephone Payment Fees will be
charged in accordance with their state law. Please
see below.

PENALTY FEES:

Up to the greater of $50 or 5% of the late payment.

Late Payment

Up to $40.

Returned Payment

Residents of states where the law prohibits or
limits Late Fees and Returned payment fees will be
charged in accordance with their state law. Please
see below.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

Greater of 5% of the unpaid amount of the installment or $15

IA

$15

NE, NH, OR, SD, WI $20
ND

$5

VA

5% of the amount of the installment payment

MT

Greater of $15 or 5% of the amount past due, not to exceed $50.

ID, KY, MI

Greater of $15 or 5% of the monthly payment due.

UT

Greater of $30 or 5% of the delinquent unpaid amount of the
installment.

MD

Greater of $5 per month or 10% per month of payment amount
past due.

7 Day Grace Period
AZ

5% of monthly payment due

10 Day Grace Period

FEES
ACCOUNT
MAINTENANCE FEE

TN

IN

$18.50

FL, NJ, DE, NY

$10

CO, LA

$15

GA

$25

IL

5% of the monthly payment past due

WV

5% of the monthly payment past due not to exceed $15

SC

5% of the monthly payment past due not to exceed $17.50

WA

10% of the monthly payment past due

MN

Greater of 5% of the amount of the monthly payment or $7.80.

OK

Greater of 5% of the payment amount due or $24

OH

Greater of 5% of the payment amount due or $5

WY

Greater of 5% of the unpaid amount of the installment or $10

TX

Lesser of $15 or 5% of the monthly payment.

KS

Lesser of 5% of the payment due or $25

15 Day Grace Period
ME

$10

PA

Greater of $10 or 10% of each payment past due

MS

Greater of 4% of the amount of the delinquency or $5

MO

Greater of 5% of each installment or minimum payment due or
$15, not to exceed $50

30 Day Grace Period
NC

$5 on accounts having an outstanding balance of less than $100
and $10 on accounts having an outstanding balance of $100 or more

RETURNED PAYMENT FEES: If any check or electronic payment is returned
unpaid, subject to applicable law, you will pay a Returned Payment Fee of:

To learn more about factors to consider when
applying for or using a credit card, visit the website
of the Bureau of Consumer Financial Protection at
http://www.consumerfinance.gov/learnmore

CUSTOMER COPY

© ISPC 06.21

U21.6

Your minimum payment may be calculated differently to the extent a portion of
your balance is subject to a special promotion.

RETURNED PAYMENT FEES BY STATE
NV

$10 or the amount of charges imposed on us.

MS, VA

$15

MD

$15 for payment made with a check that is dishonored
on the second presentment.

IA, ID, NJ, NY, OH, UT

$20

CO, IL, IN, MI, MO,
NC, NH, OK, WV

$25

SPECIAL PROMOTIONS: From time to time special financing terms for purchases
may be available, such as extended interest-free periods and incentive interest
rates. This may be limited to purchases of specific goods from a participating
merchant. Special promotions that may currently be available are explained
below. Any specific special promotion relating to a purchase will be reflected
on your charge slip.
ACCEPTING PAYMENT: We can accept late or partial payments, as well as
payments marked “paid in full” or with other restrictive endorsements, without
losing any of our rights under this Agreement.

AZ, DE, ME, NE, WA, WI,
AR, KS, MN, SC, TN, TX, WY $30
ND, OR

$35

SD

$40

FL

Bank fees actually incurred plus a service charge of $25
if the face value does not exceed $50; $30 if the face value
exceeds $50 but does not exceed $300; $40 if the face
value exceeds $300; or 5% of the face value of the payment
instrument, whichever is greater.

LA

Greater of $25 or 5% of the amount of the instrument.

KY

Greater of $25 or the amount passed on from other
financial institutions.

GA

Greater of $30 or 5% of the amount of the instrument.

NM, PA

We preserve our civil remedies under state law.

USE OF ACCOUNT: You can use your Account to pay for your purchase of goods
and services as well as cash advances on your Account as long as (1) you
are not in default, (2) your financial condition has not materially or adversely
changed, (3) we have not been provided information by third parties that
indicates serious charge-offs or delinquencies on your accounts with other
creditors, and (4) the transaction will not result in your credit limit being
exceeded.
CREDIT LIMIT: Your Account credit limit will be shown on every billing statement.
We may increase your credit limit at our sole discretion or decrease it at any
time, without prior notice to you if you do any of the following: default on your
Account, join a credit counseling service, file for bankruptcy or your home
is being foreclosed upon, tell us that you intend to not make your payments,
request to modify our terms, place our security interest in question or your
credit score is reduced.
CASH ADVANCES: If cash advances are available in your state, you may request
a cash advance by either going to our secure website at www.theISPC.com
or calling us at 1-800-345-4772. Requested cash advances will be funded
by our either electronically depositing the cash advance into your designated
bank account by an automated clearing house transfer (ACH) or sending you
a check. Cash advances are subject to limitations on maximum amount and
frequency, and additional fees as follows: In TX, fees will be $2 or 2% of the
cash advance, whichever is greater. In all other states, where allowed by state
law, fees will be $10 or 5% of the cash advance, whichever is greater.
BILLING STATEMENT: We will send you a billing statement each month that
there is activity on your Account. Your billing statement will show pertinent
information about your Account.
PAYMENT: You must pay at least the total minimum payment due on your
account by 5:00 p.m. (Eastern Time) on the due date of each billing cycle.
Payments received after 5:00 p.m. (Eastern Time) will be credited as of the
next day. You may at any time pay your entire unpaid balance or pay more
than the minimum payment due on your Account. This will reduce your interest
charges. If your payment due date falls on a date that we do not receive or
accept payments by mail (including weekends and holidays), then we will not
treat the payment received the next business day as late. All payments must
be drawn on U.S. dollars on deposit in the United States. Payments must be
sent to us at the address designated on your billing statement.
PLACE OF PAYMENT: You agree to send payments to us in Florida at our
address at 17633 Gunn Hwy, PMB 122, Odessa, Florida 33556-1912. Please
also see the below provision that Florida law governs this Agreement and all
transactions arising out of or relating to this Agreement, and that the location
for the resolution of any disputes shall be in Florida.
ISPC AUTOPAY: You can choose to make your payments by using ISPC
AutoPay. There is no charge for using ISPC AutoPay. You can sign up for ISPC
AutoPay now by completing the attached ISPC AutoPay Authorization. You
can also sign up for ISPC AutoPay at any time that your Account is in effect by
going to ISPC’s website at www.theISPC.com or by contacting ISPC Customer
Service at 1-800-345-4772. You can cancel your ISPC AutoPay Authorization
at any time. If you use ISPC AutoPay, your Account Maintenance Fee may be
reduced as explained above.
INTEREST CHARGE CALCULATION: We figure the amount of your interest by
applying the applicable daily periodic rate to the average daily balance of
your account. We then multiply the result by the number of days in the billing
cycle. A separate daily balance is calculated for purchases, cash advances and
balances subject to different APRs and special promotions.
To get the “average daily balance”, we take the beginning balance of your
account each day in the billing cycle, add any new purchases, cash advances
and other debits (other than late fees, returned payment fees, monthly
maintenance fees, annual fees and other fees) and subtract payments or
credits. This gives us the daily balance. Purchases and cash advances are
added to the daily balance as of the date we fund the transaction. Then,
we add up the daily balances for the billing cycle and divide the total by the
number of days in the billing cycle. This gives us the “average daily balance.”
Minimum Payment. Your minimum payment will be equal to the sum of:
1. The greater of: (a) $15, (b) 2% of the highest balance on your Account
since it was last zero, or (c) your entire New Balance shown on your billing
statement, if it is $15 or less; PLUS
2. Any Account Maintenance Fee; PLUS
3. Any amount past due.

CANCELLATION: You may close your Account to future purchases at any time
by notifying us in writing. We may close or suspend your Account to future
purchases at any time without prior notice. Regardless of the expiration,
closing or suspension of your Account, you remain responsible for paying
the amount you owe us according to the terms of this Agreement.
PAYMENT ALLOCATION: We will apply your payments first to interest charges,
then to any other fees with the remainder of your payment being applied to the
unpaid balance of your Account. Any payment on the unpaid balance of your
Account will be applied to higher APR balances before lower APR balances.
Applicable law may require or permit us to apply payments in a different
manner in certain situations, such as when your Account has a special
promotion.
CHANGE IN TERMS: We may change the terms of this Agreement from time to
time in the future as permitted by applicable law. We may add terms, remove
terms, or change existing terms, including the annual percentage rate. We will
give you notice of any changed terms as required by applicable law.
SECURITY INTEREST: YOU GRANT US A PURCHASE MONEY SECURITY
INTEREST IN ALL GOODS PURCHASED THROUGH YOUR ACCOUNT,
AND ITS PROCEEDS, INCLUDING INSURANCE PROCEEDS (THE
“COLLATERAL”). OUR SECURITY INTEREST IN THE COLLATERAL
CONTINUES UNTIL THE GOODS ARE PAID FOR AND THE ACCOUNT
IS CLOSED. YOU AUTHORIZE US TO FILE OR RECORD (AND TO SIGN
FOR YOU IF NECESSARY) ANY FINANCING STATEMENTS OR OTHER
DOCUMENTS WE DEEM NECESSARY TO PERFECT AND PROTECT OUR
SECURITY INTEREST IN THE COLLATERAL, INCLUDING A FIXTURE
FILING UNDER THE UNIFORM COMMERCIAL CODE. TO THE EXTENT
THE COLLATERAL IS OR IN THE FUTURE MAY BE DEEMED TO BE A FIXTURE, OUR
SECURITY INTEREST ONLY EXTENDS TO THE COLLATERAL. THIS MEANS THAT
OUR SECURITY INTEREST IN THE COLLATERAL IS NOT, AND WILL NOT BE, A
SECURITY INTEREST OR LIEN UPON YOUR DWELLING, WHERE THE COLLATERAL IS
LOCATED. YOU AGREE THAT YOU WILL NOT REMOVE OR RELOCATE THE
COLLATERAL WITHOUT OUR PRIOR WRITTEN APPROVAL. YOU WILL
BE RESPONSIBLE FOR ANY LOSS OR DAMAGE TO THE COLLATERAL
OR YOUR DWELLING, WHERE THE COLLATERAL IS LOCATED, AS A
RESULT OF YOUR REMOVAL OR RELOCATION OF THE COLLATERAL.
NOTICE OF YOUR CHANGES: You agree to give us prompt notice of any change
in your name, mailing address or telephone number or place of employment.
Until we receive notice of your new address, we may continue to send billing
statements and other notices to the address you gave us on the Application
for this Account.
DEFAULT: You agree that you will be in default if: (a) you fail to pay the minimum
payment by the payment due date; (b) you fail to perform any of your other
obligations provided in this Agreement; (c) you become bankrupt or insolvent; (d) you die or are declared incompetent; or (e) you provided us false or
misleading information relating to your credit application or Account.
REMEDIES: You agree that upon your default, we may close your Account and
demand immediate payment of your entire Account balance, after giving you
any notice and opportunity to cure the default required by applicable law.
In addition, you agree that we shall have all the rights of a secured creditor
under the Uniform Commercial Code and other applicable law with respect to
your Collateral. You agree to pay any expenses incurred in connection with
the enforcement of our remedies upon default, including, without limitation,
(a) repossession, repair and collection costs, and (b) our reasonable attorney
fees, arbitration and court costs, and related fees to the extent permitted by
applicable law.
ELECTRONIC DISCLOSURE: You agree that any notices and disclosures related
to your Account can be delivered to you in printed form or by electronic means
if you provided an electronic mail address to us when you applied for your
Account or at a later date. Until we receive notice of a new electronic mail
address, we may continue to send such notices and disclosures to the
electronic mail address you most recently provided to us.
YOUR TELEPHONE NUMBER; E-MAIL: You expressly consent to be contacted
by us, our agents, representatives, affiliates, or anyone calling on our
behalf for any and all purposes arising out of or relating to your Account, at any
telephone number, physical or electronic address you provide, or numbers
we can reasonably associate with your account (through skip trace, caller
ID capture, or other means). All signatories to this Agreement agree we may
contact them in any way, including SMS messages (text messages), calls
using prerecorded messages or artificial voice, and calls and messages
delivered using auto telephone dialing system or an automatic texting system.
Automated messages may be played when the telephone is answered, whether
by you or someone else. In the event that an agent or representative calls, he
or she may also leave a message on your answering machine, voice mail, or
send one via text.
You certify, warrant, and represent that the telephone numbers provided to
us are your numbers and not someone else’s. You represent that you are
permitted to receive calls at each of the telephone numbers have provided
to us. You agree to notify us whenever you stop using a particular telephone
number. Standard text messaging and/or calling charges may apply. We may
also contact you by email using the email address that you provide to us. The
Parties agree that this is a bargained-for exchange and, subject to applicable
law, this consent may not be revoked without written agreement of both
parties.

CUSTOMER COPY

© ISPC 06.21

U21.6

ERRORS IN CREDIT REPORTING INFORMATION: We may report information about
your Account to credit reporting agencies. If you believe we have reported
inaccurate information about you to a credit reporting agency, please contact
us by mail at ISPC, 1115 Gunn Highway, Suite 100, Odessa, FL 33556 or by
fax at 813-403-5050 and identify the inaccurate information and tell us why
you believe it is incorrect.
GOVERNING LAW AND PERSONAL JURISDICTION – FLORIDA: You agree that
this Account Agreement and all transactions arising out of or related to this
Agreement, including the resolution of any and all disputes under the
Agreement, are governed by Florida law, without regard to any choice of law
principles. You further agree that Florida’s courts have personal jurisdiction
over you for any claims arising out of or related to this Account Agreement,
unless subject to binding arbitration, as described below, or unless we
pursue our rights in any Collateral, in which event the law of the state where the
Collateral is located will govern your and our rights. You hereby specifically
consent to appear in the courts of the state of Florida, and agree that this
Agreement, as well as any other contacts you have had with the state of
Florida, are sufficient notice that you reasonably anticipate that Florida will
be the proper forum for the resolution of any disputes under the Account
Agreement.
RESTRICTIONS ON VENUE, JURISDICTION AND APPLICABLE LAW: In the event this
Agreement’s provisions on choice of law, jurisdiction, and/or venue are inconsistent with your state’s requirements, then your state’s provisions in effect
at the time you signed the Agreement or at the time of enforcement of the
Agreement will control.
ENTIRE AGREEMENT: This Agreement supersedes any and all other prior
understandings and agreements, either oral or in writing, between the parties
with respect to the account. Each party to this Agreement acknowledges
that no representations, inducements, promises, or agreements, orally or
otherwise, have been made by any party or by anyone acting on behalf of any
party, which are not embodied in this Agreement and that any agreement,
statement or promise that is not contained in this Agreement shall not be valid
or binding or of any force or effect. This Agreement may not be modified orally.
ENFORCEABILITY: If any part of this Agreement is found to be void or
unenforceable, all other parts of this Agreement will still apply.
DELAY IN ENFORCEMENT IS NOT WAIVER: Our rights under this Agreement will
not be prejudiced by any delay in exercising them or by any other act done or
omitted by us which but for this clause might have been deemed a waiver of
such rights nor will any exercise of any such right preclude any further exercise
of such right or any other right.
WAIVER OF JURY TRIAL: EACH PARTY IRREVOCABLY AND UNCONDITIONALLY WAIVES, TO THE FULLEST EXTENT PERMITTED BY APPLICABLE
LAW, ANY RIGHT IT MAY HAVE TO A TRIAL BY JURY IN ANY LEGAL
ACTION, PROCEEDING, CAUSE OF ACTION OR COUNTERCLAIM
ARISING OUT OF OR RELATING TO THIS AGREEMENT, INCLUDING
ANY EXHIBITS, SCHEDULES, AND APPENDICES ATTACHED TO THIS
AGREEMENT, OR THE TRANSACTIONS CONTEMPLATED HEREBY.
EACH PARTY CERTIFIES AND ACKNOWLEDGES THAT (A) NO
REPRESENTATIVE OF THE OTHER PARTY HAS REPRESENTED,
EXPRESSLY OR OTHERWISE, THAT THE OTHER PARTY WOULD NOT
SEEK TO ENFORCE THE FOREGOING WAIVER IN THE EVENT OF A
LEGAL ACTION, (B) IT HAS CONSIDERED THE IMPLICATIONS OF THIS
WAIVER, (C) IT MAKES THIS WAIVER KNOWINGLY AND VOLUNTARILY,
AND (D) IT HAS DECIDED TO ENTER INTO THIS AGREEMENT IN
CONSIDERATION OF, AMONG OTHER THINGS, THE MUTUAL WAIVERS
AND CERTIFICATIONS IN THIS SECTION.
ARBITRATION
IF YOU ARE A COVERED BORROWER UNDER THE MILITARY LENDING
ACT, THE FOLLOWING ARBITRATION AGREEMENT DOES NOT APPLY
TO YOU.
PLEASE READ THESE PROVISIONS CAREFULLY. THEY PROVIDE THAT
ANY DISPUTE ARISING OUT OF OR RELATING TO THIS AGREEMENT
MUST BE RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE RIGHT TO A
JURY TRIAL, AND THE RIGHT TO INITIATE OR PARTICIPATE IN A CLASS
ACTION OR SIMILAR COLLECTIVE OR CONSOLIDATED PROCEEDINGS,
WHICH YOU HEREBY WAIVE. IN ARBITRATION, A DISPUTE IS
RESOLVED BY AN ARBITRATOR INSTEAD OF A JUDGE OR JURY, AND
THE ARBITRATOR’S DECISION IS FINAL AND BINDING. ARBITRATION
PROCEEDINGS ARE SIMPLER AND MORE LIMITED THAN COURT
PROCEEDINGS.
AGREEMENT TO ARBITRATE: Any disputes, claims, or controversies arising out
of or in any way related to this Agreement or the breach thereof, including any
disputes, claims, or controversies related to the applicability, interpretation,
validity, arbitrability, or enforcement of this Agreement to Arbitrate (the
“Arbitration Agreement”), shall be resolved through mandatory, binding
arbitration.
EXCLUDED CLAIMS: Despite this Arbitration Agreement, any lawful self-help
remedies we may exercise, such as repossession of collateral, as well as
garnishment and/or replevin and/or other post-judgment collection and
enforcement efforts are excluded from this Arbitration Agreement. Additionally,
the AAA Consumer Arbitration Rules (Rule R-9) provide that if the claim is
within the jurisdiction of a small claims court, either party may choose to take
the claim to that court instead of arbitration.
INITIATING ARBITRATION: In order to start arbitration, either party must first
notify the other in writing that it wishes to arbitrate a dispute. This notification
must briefly explain the dispute, specify the amount of money involved, and
state what relief is being sought (the “Claim”). The Claim will then be referred
to the American Arbitration Association (AAA) (www.adr.org), at the option
of the party first electing arbitration. The provisions of the Federal Arbitration
Act, 9 U.S.C. §§ 1-16 (FAA) govern. You and we agree that the FAA applies
to this Arbitration Agreement and shall be interpreted in the broadest way the
law will allow.

PROHIBITION AND WAIVER OF CLASS ACTIONS AND CONSOLIDATED ACTIONS:
There shall be no right or ability for you to pursue any claims or matters within
the scope of or arising out of this Agreement or this Arbitration Agreement
as a class action or on a class-wide, consolidated, or collective basis, which
prohibition and waiver extends to any actions brought for damages or equitable
relief. Additionally, the claims of more than one person may not be arbitrated or
litigated jointly or consolidated with any other individual’s claims.
ARBITRATION PROCEDURES: This Arbitration Agreement is governed by the
FAA. The Claim will be resolved pursuant to this Arbitration Agreement and
the Consumer Rules then in effect of the AAA, except where those rules
conflict with this Agreement.
Both you and we agree to the use of a single arbitrator, preferably through
mutual agreement. If agreement cannot be reached on the selection of an
arbitrator, you and we agree that the selection will be made by the arbitration
organization being utilized. The arbitrator will apply the substantive law,
statutes of limitation, and privileges deemed applicable to the dispute. The
arbitrator will not apply any federal or state rules of civil procedure or evidence
in matters relating to evidence or discovery. Except as described in the
Prohibition and Waiver of Class Actions and Consolidated Actions, the
arbitrator may award any relief otherwise available in court. The arbitration will
be confidential, but you may notify any governmental authority of your claim,
if you deem that appropriate. The arbitrator’s award will be final and binding,
except for any right of appeal provided under the FAA. Judgment on the award
rendered by the arbitrator may be entered in any court having jurisdiction
within the state of Florida.
For any arbitration hearing requested, it will be held at a location that is
reasonably convenient to you and us, with due consideration of the parties’
ability to travel and other pertinent circumstances. If you and we cannot agree
on a location, the determination shall be made by the arbitration organization
or arbitrator selected to resolve the dispute.
ARBITRATION FEES, ATTORNEY’S FEES, COSTS, AND VENUE: Subject to applicable
law and the governing provisions of the AAA’s Consumer Rules, you will be
responsible for paying your share of any arbitration fees (including filing,
administrative, hearing or other fees), but only up to the amount of the
filing fees you would have incurred if you had brought a claim in court. We will
be responsible for any additional arbitration fees. The prevailing party in any
arbitration shall be entitled to recover reasonable costs and attorney’s fees,
with the arbitrator making the determination as to which party prevailed and
what amount of attorney’s fees is reasonable. The prevailing party in any small
claims litigation permitted under the AAA Consumer Rules shall be entitled to
recover reasonable costs and attorney’s fees. Venue in any such small claims
litigation permitted under the AAA Consumer Arbitration Rules shall be in
Hillsborough County, Florida.
SEVERABILITY: This Arbitration Agreement will survive the termination of this
Agreement. If any part or parts of this Arbitration Agreement are found to
be invalid or unenforceable by a decision of a court or tribunal of competent
jurisdiction, then such part or parts shall be of no force and effect and shall be
severed, but the remainder of this Arbitration Agreement shall continue in full
force and effect.
SPECIAL PROMOTION PLANS: Special promotion plans that currently may be
available for purchases are listed below. However, limitations apply. These
special promotion plans may not be available from time to time or may not
be offered for purchases from all merchants. Other special promotion plans
may be available from time to time. If an Account that includes one or more
purchases subject to a special promotion plan becomes 60 days or more
past due, then all special promotions shall terminate and the entire unpaid
balance of the Account will be subject to the regular terms and conditions in
this Account Agreement (Code REG). Purchases subject to SUNWISE special
promotion plans may be divided into more than one balance and may be treated
similarly as more than one purchase. Not all promotions are available in every
state.
13.99% APR/REDUCED MINIMUM PAYMENT: The APR on your purchase is
reduced to 13.99% (.0383% daily rate) and the minimum payment is
reduced to 1.5% of the highest balance on your Account since it was last
zero. All other regular terms and conditions in the Account Agreement
apply. (Code 1399)
9.9% APR/REDUCED MINIMUM PAYMENT: The APR on your purchase is
reduced to 9.9% (.0271% daily rate) and the minimum payment is reduced
to 1.2% of the highest balance on your Account since it was last zero. All
other regular terms and conditions in the Account Agreement apply. (Code
9912)
9.9% APR/LOWEST MINIMUM PAYMENT: The APR on your purchase is
reduced to 9.9% (.0271% daily rate) and the minimum payment is reduced
to 1% of the highest balance on your Account since it was last zero. All
other regular terms and conditions in the Account Agreement apply. (Code
991)
8.9% APR/REDUCED MINIMUM PAYMENT: The APR on your purchase is reduced
to 8.9% (.0244% daily rate) and the minimum payment is reduced to 1.25%
of the highest balance on your Account since it was last zero. All other
regular terms and conditions in the Account Agreement apply. (Code 8912)
NO PAYMENTS FOR 3 MONTHS: No payments will be due on your purchase
until 3 months after the date we fund your purchase. Interest is being
charged during this deferment period. Thereafter, your purchase will be
subject to the regular terms and conditions in the Account Agreement. This
plan may be added to the following other plans by adding “-3” to the Code:
REG, 1399, 991, 8912.
NO PAYMENTS FOR 6 MONTHS: No payments will be due on your purchase
until 6 months after the date we fund your purchase. Interest is being
charged during this deferment period. Thereafter, your purchase will be
subject to the regular terms and conditions in the Account Agreement. This
plan may be added to the following other plans by adding “-6” to the Code:
REG, 1399, 991, 8912.

NO INTEREST/PAYMENTS FOR 180 DAYS: No interest will be charged and no
payments will be due on your purchase until 180 days after the date we
fund your purchase. Thereafter, your purchase will be subject to the regular
terms and conditions in the Account Agreement. This plan may be added to
the following other plans by adding “-6NN” to the end of the Code: REG,
1399, 991, 8912.
© ISPC 06.21
CUSTOMER COPY
U21.6

6.9% APR/REDUCED MINIMUM PAYMENT: For 12 months after the date we fund
your purchase the APR on your purchase is reduced to 6.9% (.0189% daily
rate) and the minimum payment is reduced to 1% of the highest balance on
your Account since it was last zero. Thereafter, your purchase will be
subject to the 1399 promotional plan terms and conditions in the Account
Agreement. The code for this combined plan is 1399-691.
0% APR FOR 1 YEAR: The APR on your purchase is reduced to 0% (.000%
daily rate) for 12 months after the date we fund your purchase and the
minimum payment is increased to 8.34% of the highest balance on your
Account since it was last zero. All other regular terms and conditions in the
Account Agreement (including the APR after 12 months) apply. (Code
0834)
0% APR FOR 3 YEARS: The APR on your purchase is reduced to 0% (.000%
daily rate) for 36 months after the date we fund your purchase and the
minimum payment is increased to 2.78% of the highest balance on your
Account since it was last zero. All other regular terms and conditions in the
Account Agreement (including the APR after 36 months) apply. (Code
0278)

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement or if you need more information
about a transaction on your bill, write to us as soon as possible (We must hear
from you no later than 60 days after we sent you the first bill on which the error
occurred) at:
ISPC
Attention: Customer Service Department
1115 Gunn Highway, Suite 100
Odessa, FL 33556
You may also contact us on the Web: www.theISPC.com
You may telephone us but doing so will not preserve your rights.
In your letter, give us the following information:
• ACCOUNT INFORMATION: Your name and account number.
• DOLLAR AMOUNT: The dollar amount of the suspected error.

SUNWISE (430) DELAYED PAYMENTS AND ACCRUED INTEREST: Payments toward
your purchase shall not be required until after the Expiration Date of
the delayed payment period. The Expiration Date shall be April 30th of
the calendar year immediately after the calendar year that your purchase
is installed. Interest shall accrue from the beginning of the delayed payment
period and shall be applied to your Account after the Expiration Date. If
your purchase is paid before or by the Expiration Date, no accrued interest
shall be added to your balance. (Code 430SW)

• DESCRIPTION OF PROBLEM: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

SUNWISE (365) DELAYED PAYMENTS AND ACCRUED INTEREST: Payments toward
your purchase shall not be required until after the Expiration Date of the
delayed payment period. The Expiration Date shall be 12 months after
the date we fund your purchase. Interest shall accrue from the beginning
of the delayed payment period and shall be applied to your Account after
the Expiration Date. If your purchase is paid before or by the Expiration
Date, no accrued interest shall be added to your balance. (Code 365SW)

We must acknowledge your letter within 30 days, unless we have corrected
the error by then. Within 90 days, we must either correct the error or explain
why we believe the bill was correct.

SUNWISE 8.8% APR/REDUCED MINIMUM PAYMENT: The APR on your purchase
is reduced to 8.8% (0.0241 daily rate) and the minimum payment is reduced
to 0.8% of the highest balance on your Account since it was last zero. All
other regular terms and conditions in the Account Agreement apply. (Code
88SW)
NOTICE TO SOUTH DAKOTA RESIDENTS: Any improprieties in making this
loan or loan practices may be referred to the South Dakota Division
of Banking, South Dakota Department of Labor and Regulation, 1601
N. Harrison Avenue, Suite 1, Pierre, SD 57501, Phone: 605.773.3421
NOTICE TO TEXAS RESIDENTS: For questions or complaints about this loan,
contact ISPC at 1-800-345-4772 ext. 1800 or at www.theispc.com. The lender
is licensed and examined under Texas law by the Office of Consumer Credit
Commissioner (OCCC), a state agency. If a complaint or question cannot be
resolved by contacting the lender, consumers can contact the OCCC to file a
complaint or ask a general credit-related question. OCCC address: 2601 N.
Lamar Blvd., Austin, Texas 78705. Phone: (800) 538-1579. Fax: (512) 9367610. Website: www.occc.texas.gov. E-mail: consumer.complaints@occc.
texas.gov.
MILITARY LENDING ACT: Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application fee
charged and any participation fee charged (other than certain participation
fees for a credit card account). You may also obtain an oral disclosure by
calling 1-800-345-4772 ext. 1816.

If you have authorized us to pay your credit card bill automatically from your
savings or checking account, you can stop the payment on any amount you
think is wrong. To stop the payment your letter must reach us three
business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written
Notice

After we receive your letter, we cannot try to collect any amount you question,
or report you as delinquent. We can continue to bill you for the amount you
question, including finance charges, and we can apply any unpaid amount
against your credit limit. You do not have to pay any questioned amount while
we are investigating, but you are still obligated to pay the parts of your bill that
are not in question.
If we find that we made a mistake on your bill, you will not have to pay any
finance charges related to any questioned amount. If we didn’t make a mistake,
you may have to pay finance charges, and you will have to make up any
missed payments on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as
delinquent. However, if our explanation does not satisfy you and you write to
us within ten days telling us that you still refuse to pay, we must tell anyone we
report you to that you have a question about your bill. And, we must tell you the
name of anyone we reported you to. We must tell anyone we report you to that
the matter has been settled between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50 of the questioned
amount, even if your bill was correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you have a problem with the quality of property or services that you
purchased with a credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining
amount due on the property or services.
There are two limitations on this right:
a)
You must have made the purchase in your home state or, if not within
		
your home state within 100 miles of your current mailing address;
		 and
b)

The purchase price must have been more than $50.

These limitations do not apply if we own or operate the merchant, or if we
mailed you the advertisement for the property or services. If all of the criteria
above are met and you are still dissatisfied with the purchase, contact us in
writing or electronically at:
ISPC
Attention: Customer Service Department
1115 Gunn Highway, Suite 100
Odessa, FL 33556
contactus@theISPC.com
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our decision.
At that point, if we think you owe an amount and you do not pay, we may report
you as delinquent.

CUSTOMER COPY

© ISPC 06.21

U21.6

